APPENDIX A

Filed 9/25/19 In re Automobile Antitrust Cases I and II CA1/4

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for publication or
ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication or ordered published for
purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FOUR

IN RE AUTOMOBILE ANTITRUST
CASES I AND II.

A152295
(San Francisco City & County,
JCCP Nos. 4298 & 4303;
CJC03004298)

After years of litigation, the sole remaining defendant in this coordinated antitrust
proceeding, Ford Motor Company of Canada, Ltd. (Ford Canada), filed in the superior
court a request for entry of judgment on grounds of claim preclusion and issue
preclusion. Ford Canada argued that a summary judgment entered by a federal court in a
related proceeding precluded the plaintiffs here (certain purchasers of new automobiles in
California) from pursuing their claims under California state antitrust and unfair
competition statutes. The superior court agreed that the claim preclusion doctrine barred
plaintiffs’ claims
claims (while
(while finding
that issue preclusion did not apply) and entered judgment
plaintiffs'
finding that
for Ford Canada.

On appeal, plaintiffs contend the superior court erred in concluding the federal
judgment has claim-preclusive effect. Ford Canada counters by arguing that (1) claim
preclusion does apply, and (2) as an alternative ground for affirmance, issue preclusion
bars plaintiffs from litigating an essential element of their claims (causation of injury),
and the
the superior
superior court's
court’s holding
holding to
to the
the contrary
contrary was
was error.
We conclude
conclude neither
neither claim
and
error. We
claim

1

preclusion nor issue preclusion applies in the present case because the plaintiffs here
were not parties to the federal proceeding, and were not in privity with the parties against
court’s
whom the judgment in that case was entered. We therefore reverse the superior court's

judgment.
I. BACKGROUND

A.

The Coordinated Proceeding in California State Court
In our opinion addressing a prior appeal in this matter, we described the

underlying
underlying litigation:
litigation: "In
“In this
this coordinated
coordinated proceeding,
proceeding, certain
certain purchasers
purchasers of
of new
new
automobiles in California (plaintiffs) brought state law claims against a number of
automobile manufacturers and dealer associations under the Cartwright Act (Bus. & Prof.
17200Code, §§ 16720–16728)
16720-16728) and the unfair competition law (Bus. & Prof. Code, §§ 17200–
17210). Specifically, plaintiffs allege that defendant manufacturers and associations
conspired to keep lower-priced, yet virtually identical, new cars from being exported
from Canada to the United States, thereby keeping new vehicle prices in California

higher than they would
would have
have been
been in
in aa properly
properly competitive
competitive market."
market.” (In
(In re Automobile
127, 131 (Automobile Antitrust Cases).)
Antitrust Cases I & II (2016) 1 Cal.App.5th 127,131
“This litigation
began over
over aa decade
decade ago
ago when,
when, in
in early
2003, more
more than
than aa dozen
dozen
"This
litigation began
early 2003,
different lawsuits were filed in California against various automobile manufacturers and

trade associations, each alleging state law causes of action for antitrust conspiracy and
unfair business practices and each filed as a class action on behalf of individuals who
purchased or leased new vehicles in California that were manufactured or distributed
within a certain period of time by one of the named defendants. The lawsuits were
eventually coordinated into this proceeding. [Citation.] Thereafter, in October 2003,

plaintiffs filed their consolidated amended class action complaint, the operative pleading
in this matter. In addition to [Ford Canada], the class action complaint named numerous
defendants.”
other automobile manufacturers [and two trade organizations] as defendants."
132–133, fn. omitted.)
(Automobile Antitrust Cases, supra, 1 Cal.App.5th at pp. 132-133,

"Plaintiffs—the
“Plaintiffs—the majority of whom eventually became class representatives in this
litigation—are George Bell, Wei Cheng, Laurance de Vries, Joshua Chen, Jason
2

Gabelsberg, Ross Lee, Jeffrey M. Lohman, Christine Nichols, Local 588 of the United
Food & Commercial Workers Union, Estelle Weyl, Michael Wilsker, and W. Scott
Young. Each plaintiff alleges an injury caused by one or more of the defendants."
defendants.”
132–133, fn. 2.) "Plaintiffs
“Plaintiffs
(Automobile Antitrust Cases, supra, 1 Cal.App.5th at pp. 132-133,
filed their motion for class certification in the instant matter in the Spring of 2005.

Proceedings were stayed, however, while the parties conducted extensive coordinated
in” a related federal proceeding.
discovery and litigated their class certification motion in"

(Automobile Antitrust Cases, supra, 1 Cal.App.5th at p. 136.)
B.
B.

The Federal Proceeding and the Coordination Order
“In addition [to the California state court proceeding], a similar lawsuit had been
"In

filed in federal court against many of the same defendants, alleging violation of federal

antitrust laws. (See In re New Motor Vehicles Canadian Export (D.Me. 2004) 307
F.Supp.2d 136, 137-138
137–138 (the federal multidistrict litigation or federal MDL).) Parallel

cases were also pending in a number of other state courts. In June 2004, the trial court
issued an order, after consultation with Judge Hornby—the judge in the federal MDL
[sitting in the District of Maine]—coordinating discovery among this action, the federal
actions.” (Automobile Antitrust Cases, supra, 1 Cal.App.5th at
action, and other state actions."
p. 136.)
C.
C.

Proceedings in the Federal District and Appellate Courts: The Dismissal of
(2004–2008)
the Federal Claims and the Vacatur of Class Certification (2004-2008)
In March 2004, Judge Hornby dismissed the federal antitrust damage claims

brought by the plaintiffs in the federal MDL but declined to dismiss the federal claims for
injunctive relief. (In re New Motor Vehicles Canadian Export, supra, 307 F.Supp.2d at
141–144.) The federal plaintiffs then amended their complaint to add
pp. 136, 137, 141-144.)

damage claims under the laws of various states, including California. (In re New Motor
Vehicles Canadian Export Antitrust (D.Me. 2004) 335 F.Supp.2d 126, 127.) In
September 2004, Judge Hornby decided to exercise supplemental jurisdiction over these

state law claims under title 28 United States Code section 1367. (In re New Motor
Vehicles Canadian Export Antitrust, supra, 335 F.Supp.2d at pp. 127-128,
127–128, 132.)

3

In rulings issued in 2006 and 2007, Judge Hornby certified a nationwide injunctive
class under federal antitrust law, as well as 20 state damage classes (including a
California class) seeking recovery under state antitrust and consumer protection statutes.
(In re New Motor Vehicles Canadian Export Antitrust Litigation (D.Me. Mar. 10, 2006,
*1–*2, *10 [certifying nationwide
MDL Docket No. 1532) 2006 WL 623591, pp. *1—*2,

injunctive class]; In re New Motor Vehicles Canadian Export Antitrust Litigation (D.Me.
2006) 235 F.R.D. 127, 129, 148 [preliminarily approving certification of five exemplar
state damage classes, including a California class]; In re New Motor Vehicles Canadian
Export Antitrust Litigation (D.Me. 2007) 241 F.R.D. 77, 78–79,
78-79, 84 & fn. 11 [concluding

certification was appropriate for the five exemplar states and for 15 additional states]; In
re New Motor Vehicles Canadian Export Antitrust Litigation (D.Me. 2007) 243 F.R.D.
21–23 [certifying class action and appointing class counsel]; see Automobile Antitrust
20, 21-23
Cases, supra, 1 Cal.App.5th at p. 136, fn. 7.) As to the federal court class seeking
damages under California law, the class representatives were Lindsay Medigovich and

Parry Sadoff (the federal California plaintiffs). (In re New Motor Vehicles Canadian
Export Antitrust Litigation, supra, 243 F.R.D. at p. 23.)
In March 2008, the First Circuit Court of Appeals reversed Judge Hornby's
Hornby’s
certification of the injunctive class under federal law and ordered dismissal of the federal
claim for injunctive relief. (In re New Motor Vehicles Canadian Export Antitrust
Litigation (1st Cir. 2008) 522 F.3d 6, 9, 16, 30.) As a result, no federal claims remained
in the case. (Id. at p. 16.) The First Circuit noted, however, that there might still be a
basis for the federal district court to exercise jurisdiction over at least some of the state
law damage claims (either diversity jurisdiction under 28 U.S.C. § 1332 or supplemental
jurisdiction under 28 U.S.C. § 1367). (In re New Motor Vehicles Canadian Export
16–17.) The appellate court stated that, on
Antitrust Litigation, supra, 522 F.3d at pp. 9, 16-17.)

remand, the district court should consider these potential grounds for jurisdiction. (Id. at
p. 16.)
“The district court may
As to supplemental jurisdiction, the First Circuit stated: "The

. . . consider whether to exercise its discretion to continue exerting supplemental
4

jurisdiction, see
see 28
28 U.S.C.
U.S.C. §§ 1367,
over the
the state
state damages
damages claims,"
claims,” despite
despite the
the dismissal
dismissal
jurisdiction,
1367, over

of the federal claims. (In re New Motor Vehicles Canadian Export Antitrust Litigation,
16.) The
appellate court
court stated
stated that,
that, "[i]n
“[i]n weighing
weighing this
this option,
option, the
the
supra, 522 F.3d at p. 16.)
The appellate
district court
should consider
totality of
of the
the attendant
attendant circumstances,'
circumstances,’ including
district
court should
consider ‘the
'the totality
including

considerations of judicial economy, fairness to the parties, and the nature of the
applicable state
state law.”
applicable
law." (Ibid.)
(Ibid.)

Because there was a potential basis for jurisdiction over the state law claims, the
First Circuit reviewed the order certifying the state damage classes. (In re New Motor
Vehicles Canadian Export Antitrust Litigation, supra, 522 F.3d at pp. 9, 17.) The

appellate court vacated that certification order and stated that, on remand, the district
court could reconsider whether to certify state law damage classes in light of principles
outlined in
the appellate
appellate court's
court’s opinion
opinion and
and aa more
more fully
developed record.
record. (Id.
(Id. at pp. 9,
outlined
in the
fully developed

16, 29-30.)
29–30.)
D.

Subsequent Proceedings in the Federal District Court (2008-2009)
(2008–2009)

On remand, Judge Hornby addressed whether he should continue to exercise
supplemental jurisdiction over the state law damage claims under 28 United States Code
section 1367. (In re New Motor Vehicles Canadian Export Antitrust Litigation (D.Me.,
Apr. 29, 2008, MDL Docket No. 1532) 2008 WL 1924993, pp. *1—*2.)
*1–*2.) In an April 2008
order following a conference with counsel, Judge Hornby stated the parties agreed he
should exercise supplemental jurisdiction over the claims brought under the laws of 15 of
issue.1 (In re New Motor Vehicles Canadian Export Antitrust Litigation,
the 20 states at issue.'

supra, 2008 WL 1924993, p. *2.) But as to the remaining five states (including
California), where parallel class actions were pending in state court, the parties took
differing positions. (Ibid.) The plaintiffs argued Judge Hornby should decline to assert
supplemental jurisdiction, while the defendants argued judicial economy supported the

1
1 The

parties agreed diversity jurisdiction was unavailable except as to one
Nebraska case. (In re New Motor Vehicles Canadian Export Antitrust Litigation, supra,
2008 WL 1924993, p. *1.)
5

court.2 (In re New
continued exercise of jurisdiction over all the cases pending in federal court.'

Motor Vehicles Canadian Export Antitrust Litigation, supra, 2008 WL 1924993, p. *2.)
In
In his
his April
April 2008
2008 order,
order, Judge
Hornby concluded
concluded "that
“that at
at this
this time
time the
the prudent
prudent
Judge Hornby
course is to exercise supplemental jurisdiction over all the state law claims pending in
this Court."
Court.” (In
(In re New Motor Vehicles Canadian Export Antitrust Litigation, supra,
this

2008 WL 1924993, p. *2.) In reaching this decision, Judge Hornby noted that briefing on
defense summary judgment motions was underway, and that he would have to examine
*1–*2.)
the factual record and expert opinions to resolve those motions. (Id. at pp. *1—*2.)
“Thus, there
there is
is efficiency
in using
using that
that record
record familiarity
to resolve
the summary
summary
"Thus,
efficiency in
familiarity to
resolve the

judgment issues here as to all the states rather than require other judges to duplicate that
effort.”
effort." (Id.
(Id. at p. *2.)

One year later, however, in an April 2009 opinion, Judge Hornby revisited the
question of whether to resolve the claims brought under California law by the federal
California plaintiffs, Lindsay Medigovich and Parry Sadoff. (In re New Motor Vehicles
Canadian Export Antitrust Litigation (D.Me. 2009) 609 F.Supp.2d 104, 106-107.)
106–107.) By

that time, discovery was complete, a class certification motion by some of the federal
plaintiffs had been refiled and rebriefed, and summary judgment motions had been filed,
briefed and argued. (Id. at p. 105.) Counsel for the federal California plaintiffs,
however, had decided not to renew their request for certification of a California class in
federal court. (Ibid.) Also, the federal California plaintiffs, Medigovich and Sadoff, had
filed a motion to dismiss their claims without prejudice.3
prejudice.3 (In
(In re New Motor Vehicles
Canadian Export Antitrust Litigation, supra, 609 F.Supp.2d at p. 106.)
2
2

According to a case management conference statement subsequently filed in the
California state court proceedings, counsel for the California state court plaintiffs
appeared at the April 2008 conference in the federal action and (consistent with the
position taken by counsel for the federal court plaintiffs) asked Judge Hornby not to
continue to exercise supplemental jurisdiction over the California law claims pending in
federal court.
3
3

The federal California plaintiffs had filed this motion several months earlier, and
defendants filed an opposition in August 2008.
6

Judge
Hornby granted
granted the
the motion
motion over
over the
the defendants'
defendants’ objection.
objection. (In
(In re New
Judge Hornby
106–
Motor Vehicles Canadian Export Antitrust Litigation, supra, 609 F.Supp.2d at pp. 106-

107.) Noting that rule 41 of the Federal Rules of Civil Procedure (28 U.S.C.) required
court approval for the voluntary dismissal in light of the advanced stage of the federal
proceeding, Judge Hornby concluded dismissal was appropriate under the circumstances.
(In re New Motor Vehicles Canadian Export Antitrust Litigation, supra, 609 F.Supp.2d at
106–107.) In reaching this conclusion, Judge Hornby relied in part on the
pp. 106-107.)

supplemental jurisdiction statute, 28 United States Code section 1367, which provides
that "[federal]
“[federal] district
courts may
may decline to exercise supplemental jurisdiction over a
that
district courts
[¶] . . . the claim raises a novel or complex issue of [s]tate
[state law] claim . . . if . . . [if]
law.” (28
(28 U.S.C.
U.S.C. §§ 1367(c)(1); see In re New Motor Vehicles Canadian Export Antitrust
law."

Litigation, supra, 609 F.Supp.2d at p. 107.)
Judge Hornby concluded the claims before him raised a novel or complex issue of
California state law, specifically the question of how a plaintiff may prove antitrust

causation or injury in an indirect purchaser case. (In re New Motor Vehicles Canadian
Export Antitrust Litigation, supra, 609 F.Supp.2d at p. 107.) Judge Hornby had initially
ruled (at
(at an
an earlier
phase of
of the
the case)
case) "that,
“that, unlike
unlike some
some other
other states,
states, California
California law
law
ruled
earlier phase

allows a presumption of antitrust injury to an indirect purchaser once the plaintiff proves
the antitrust
antitrust conspiracy,”
which "is
“is aa critical
critical element
in this
this indirect
purchaser case."
case.”
the
conspiracy," which
element in
indirect purchaser

(Ibid.) Judge Hornby noted, however, that the California Supreme Court had not
definitively resolved this question, and the parties disagreed as to the correct
interpretation of the existing case law on the point. (Ibid.)
Judge Hornby decided it would be preferable for the California state courts to
resolve this
this issue.
He stated:
stated: "How
“How to
to prove
prove antitrust
antitrust causation
causation or
or injury
resolve
issue. He
injury in this indirect

purchaser case is central to decisions on both class certification and liability. I conclude
that it makes most sense to have that issue decided in California where it can be appealed
to the California Supreme Court for a final and definitive resolution. My decision on the
issue here is likely to contribute to confusion over the status of California law on the
subject, and an appeal to the First Circuit cannot provide the definitive resolution that the
7

California Supreme
Court can."
can.” (In
(In re New Motor Vehicles Canadian Export Antitrust
California
Supreme Court

Litigation, supra, 609 F.Supp.2d at p. 107.) Judge Hornby therefore revisited his initial
decision to exercise supplemental jurisdiction over the California claims and granted the
motion by Medigovich and Sadoff to dismiss those claims without prejudice. (Ibid.)
In July 2009, Judge Hornby granted summary judgment for defendants as to the
remaining
remaining plaintiffs'
plaintiffs’ claims
claims under
under the
the laws
laws of
of 19
19 states.
states. (In
(In re New Motor Vehicles
Canadian Export Antitrust Litigation (2009) 632 F.Supp.2d 42, 45, 63.) Judge Hornby

concluded the plaintiffs could not prove the element of causation, i.e., that the alleged
conspiracy had
had caused
“antitrust (or
(or consumer
consumer protection)
protection) injury”
by raising
the prices
prices
conspiracy
caused "antitrust
injury" by
raising the
45–47; see id. at p. 56.) Specifically,
paid by consumers for new vehicles. (Id. at pp. 45-47;
applying principles
principles set
set forth
the First
First Circuit's
Circuit’s earlier
opinion addressing
addressing class
applying
forth in
in the
earlier opinion
class

certification, Judge Hornby determined the plaintiffs could not prove that every
transaction sales price was affected by the alleged conspiracy. (Id. at pp. 58–59,
58-59, 63.)
This was true under the laws of each of the 19 states at issue, all of which required

affirmative proof of causation. (Id. at p. 63.) Judge Hornby did not determine what the
be under
under California
California law
law (with
(with its
its "shifting
“shifting presumption"
presumption” as
as to
to injury),
injury),
result would be

claims aa few
few months
because, in
in light
of the
the dismissal
dismissal of
of the
the federal
California plaintiffs'
plaintiffs’ claims
months
because,
light of
federal California
earlier,
California was
was "no
“no longer
longer in
in the
the mix."
mix.” (Ibid.)
(Ibid.)
earlier, California
Following issuance of his summary judgment order, Judge Hornby entered

judgment for the remaining defendants in the federal case (i.e., the defendants that had
not settled or filed for bankruptcy protection), including both Ford Motor Company (Ford
U.S.) and Ford Canada.
E.

Class Certification and Summary Judgment Proceedings in the California
(2009–2016)
Superior Court and the Subsequent Appeal to this Court (2009-2016)
In May 2009, the trial court in the present California state court proceeding (Judge

Kramer, who previously had stayed class certification proceedings pending developments

in the federal
case) granted
granted the
the plaintiffs'
plaintiffs’ motion
motion for
class certification.
certification. (Automobile
(Automobile
federal case)
for class
Antitrust Cases, supra, 1 Cal.App.5th at p. 136.) The certified class included persons
who purchased or leased new automobiles in California between 2001 and 2003.

8

Between 2010 and 2012, the parties litigated summary judgment motions in the
137–140.) By May
trial court. (Automobile Antitrust Cases, supra, 1 Cal.App.5th at pp. 137-140.)

2011, as a result of settlements, bankruptcies and summary judgment rulings, the only
remaining defendants were Ford U.S. and Ford Canada. (Id. at pp. 137–139.)
137-139.) In
November 2011, Judge Kramer granted summary judgment in favor of Ford U.S. and
Ford Canada, concluding plaintiffs had not presented sufficient evidence that these
defendants participated in an unlawful conspiracy. (Id. at p. 140.) Plaintiffs appealed the
ensuing judgment to this court.
(Automobile Antitrust Cases, supra, 1 Cal.App.5th at
court.44 (Automobile

p. 140.) In 2016, this court affirmed the judgment for Ford U.S. but reversed and
remanded as to Ford Canada, concluding triable issues of material fact precluded
summary judgment on the question whether Ford Canada participated in an unlawful
conspiracy. (Id. at pp. 172–173.)
172-173.)
F.

(2016–2017)
Subsequent Proceedings in the Superior Court (2016-2017)

On remand, the trial court (Judge Karnow, to whom the case had been reassigned)
conducted further proceedings between plaintiffs and the sole remaining defendant, Ford
Canada. In
May 2017,
2017, Judge
Karnow denied
denied Ford
Ford Canada's
Canada’s pending
pending motion
motion for
Canada.
In May
Judge Karnow
for

summary judgment on the issue of antitrust injury or causation (initially filed in 2010 by
multiple defendants). In reaching his conclusion that a triable issue of fact existed on
causation, Judge Karnow focused primarily on the expert and other evidence submitted
by plaintiffs,
plaintiffs, as
as well
well as
as Ford
Ford Canada's
Canada’s attacks
attacks on
on the
the opinions
opinions of
of plaintiffs'
plaintiffs’ expert.
As to
to
by
expert. As
Hornby’s July
2009
the governing legal standards, Judge Karnow referred to Judge Hornby's
July 2009

decision addressing causation and injury, but Judge Karnow stated that California law
“may not
not be
be in
in accord"
accord” with
with the
the First
First Circuit
Circuit standards
standards applied
applied by
by Judge
Hornby,
"may
Judge Hornby,

4
4

At some point during this time period, the then-remaining defendants, including
Ford U.S. and Ford Canada, filed a joint motion for summary judgment on the issue of
antitrust impact. (Automobile Antitrust Cases, supra, 1 Cal.App.5th at p. 137, fn. 9.)
That motion was fully briefed but was not then argued or decided by the trial court.
defendants did
did not
not file
motion during
during this
this period
period arguing
arguing the
the federal
court’s
(Ibid.) The
The defendants
file aa motion
federal court's
2009 summary judgment decision had preclusive effect.
9

specifically because California law may provide for a presumption of injury once there is
proof of an unlawful conspiracy.
In April 2017, Ford Canada filed a motion for entry of judgment, arguing that,
under principles
principles of
of claim
claim preclusion
preclusion and
and issue
issue preclusion,
preclusion, Judge
Hornby’s 2009
2009 summary
summary
under
Judge Hornby's

judgment in the federal action barred the plaintiffs in this action from pursuing their
claims. Ford Canada argued (1) the two proceedings involved the same claims, and
(2) the plaintiffs in the present action were in privity with the plaintiffs in the federal
action. As to issue preclusion, Ford Canada contended Judge Hornby had resolved the
issue of antitrust injury or causation, precluding the California state court plaintiffs from

litigating that issue.
After receiving briefing and holding a hearing, Judge Karnow granted Ford
Canada’s motion
motion in June 2017. Judge Karnow concluded that, for purposes of claim
Canada's
preclusion, the
the California
California and
and federal
actions involved
involved the
the same
same "cause
“cause of
of action"
action”
preclusion,
federal actions
because they alleged the same harm, i.e., the plaintiffs paid higher prices for vehicles as a
Canada’s illegal
illegal conduct.
conduct. Judge
Karnow also
also held
held the
the plaintiffs
plaintiffs in
in the
the
result of Ford Canada's
Judge Karnow

present California state court action were in privity with the plaintiffs in the federal
proceeding. He therefore granted summary judgment on the basis of claim preclusion.
Although he did not need to reach the question, Judge Karnow also addressed
issue preclusion
preclusion (the
(the alternative
alternative basis
basis for
Ford Canada's
Canada’s motion)
motion) and
and concluded
concluded Judge
issue
for Ford
Judge
Hornby’s ruling
as to
to causation
causation did
did not meet the requirements of the issue preclusion
Hornby's
ruling as

doctrine. While Judge Hornby had decided the federal plaintiffs could not prove
causation of
of injury,
Karnow found
California law
“follows aa different
different standard"
standard” on
on
causation
injury, Judge
Judge Karnow
found California
law "follows

that issue because it allows an inference or presumption of injury once a plaintiff proves
of an
an unlawful
unlawful conspiracy.
conspiracy. Because
Because the
the federal
court "decided
“decided the
the
the existence of
federal court

causation issue on a standard of proof different than what might apply in this state court,
the specific
specific issue
issue of
of causation
causation was
was not
not litigated
litigated and
and decided
decided in
in the
the prior
prior proceeding,"
proceeding,” so
so
the

issue preclusion did not apply.

10

Judge Karnow entered judgment for Ford Canada.5
Canada.5 Plaintiffs
Plaintiffs appealed.

G.

Preclusion Rulings by Courts in Other States
As noted, in addition to the federal action, which by July 2009 involved plaintiffs

asserting claims under the antitrust and consumer protection laws of 19 states (In re New
Motor Vehicles Canadian Export Antitrust Litigation, supra, 632 F.Supp.2d at p. 45,
fn. 2), similar cases were pending in the courts of several states. (See Automobile

Antitrust Cases, supra, 1 Cal.App.5th at p. 136.) Between 2010 and 2018, trial courts in
five states—Minnesota, Arizona, Tennessee, New Mexico and Wisconsin—granted

motions finding the federal judgment had preclusive effect and barred the parallel actions
them.6 (Lerfald
(Lerfald v. General Motors Corporation (Minn.Dist.Ct., Sep. 16, 2010,
before them.6

No. 27-CV-03-3327) (Lerfald); Maxwell v. General Motors Corporation (Ariz.Super.Ct.,
Mar. 2, 2011, CV 2003-003925) (Maxwell); Johnson v. General Motors Corporation
(Tenn.Dist.Ct., June 12, 2017, C.A. No. 35028) (Johnson I); Corso v. General Motors
Corporation (N.M.Dist.Ct., Jan. 19, 2018, D-101-CV-2003-00668) (Corso); Rasmussen

v. General Motors Corporation (Wisc.Circ.Ct., Mar. 19, 2018, 03-CV-001828)
The Tennessee
Tennessee trial
trial court's
court’s ruling
ruling was
was affirmed
affirmed by
by that
that state's
state’s Court
Court of
of
(Rasmussen).) The

Appeals. (Johnson v. General Motors Corporation (Tenn.App. 2018) 574 S.W.3d 347,
352–356 (Johnson II).)
352-356

5
5

The judgment entered by Judge Karnow in 2017 recites the definition of the
plaintiff class
previously certified
certified by
by Judge
Kramer and
and states
states that
that "[p]laintiffs"
“[p]laintiffs” will
will take
take
plaintiff
class previously
Judge Kramer
nothing
from
Ford
Canada.
The
parties
interpret
Judge
Karnow’s
judgment
as
a
ruling
nothing from Ford Canada. The parties interpret Judge Karnow's judgment as a ruling
that both the named plaintiffs and all members of the certified class in this action are
bound by the 2009 federal court judgment.
6
6

The written rulings of the Minnesota and Arizona trial courts (issued in 2010 and
2011) are in the record, as they were submitted to Judge Karnow as exhibits to Ford
Canada’s 2017
2017 motion
motion for
of judgment.
judgment. We
We grant
grant Ford
Ford Canada's
Canada’s request
that we
we
Canada's
for entry
entry of
request that
take judicial notice of the rulings of the Tennessee, New Mexico and Wisconsin trial
courts (issued in 2017 and 2018).
Canada’s request
request that
that we
we take
take judicial
judicial notice
notice of
of certain
certain
We also grant Ford Canada's
documents filed in the federal action. We previously granted similar judicial notice
requests filed by plaintiffs.

11

Unlike California, each of the above five states was among the 19 whose laws
were at issue when Judge Hornby granted summary judgment in the federal action in
2009. (In re New Motor Vehicles Canadian Export Antitrust Litigation, supra, 632
F.Supp.2d at p. 45, fn. 2, 46, 56, 63 & fn. 30.)
II. DISCUSSION
We review
trial court's
court’s dismissal
dismissal on
on preclusion
preclusion grounds
grounds de
de novo
novo as
as an
an issue
of
We
review aa trial
issue of

law. (Noble v. Draper (2008) 160 Cal.App.4th 1, 10.) Under the doctrines of claim
preclusion (collectively
(collectively referred
referred to
to as
as "res
“res judicata"),
judicata”), aa final
preclusion and issue
issue preclusion
final
judgment prevents successive litigation of certain claims and issues in later proceedings.

(Taylor v. Sturgell (2008) 553 U.S. 880, 892 (Taylor); People v. Barragan (2004) 32
Cal.4th 236, 252-253
252–253 (Barragan).) While
While issue
issue preclusion
preclusion "applies
“applies only
only to
to issues
issues that
that
Ca1.4th
were actually
actually litigated,”
claim preclusion
preclusion applies
applies "more
“more broadly
broadly to
to what
what could
have been
been
were
litigated," claim
could have
litigated.” (Guerrero
litigated."
(Guerrero v. Department of Corrections & Rehabilitation (2018) 28

Cal.App.5th 1091, 1098 (Guerrero).)
Application of the claim preclusion and issue preclusion doctrines prevents parties
“ ‘from
contesting matters
matters that
that they
they have
have had
had aa full
and fair
opportunity to
to litigate
litigate[.]’
”
"
'from contesting
full and
fair opportunity
[.]' "

(Taylor, supra, 553 U.S. at p. 892; see Guerrero, supra, 28 Cal.App.5th at p. 1098.) In
Taylor, the
the United
United States
Court noted:
noted: "A
“A person
person who
who was
was not
not aa party
party to
to aa suit
suit
States Supreme
Supreme Court
generally has
has not
not had
had aa ‘full
and fair
opportunity to
to litigate’
the claims
claims and
and issues
issues settled
settled
generally
'full and
fair opportunity
litigate' the
in that
that suit."
suit.” (Taylor,
(Taylor, supra, 553 U.S. at p. 892.)
Accordingly, the
the "general
“general rule"
rule” is
is that
that aa
in
892.) Accordingly,

person who was not a party to a prior action is not bound by the judgment entered in that
case, subject
subject to
to certain
certain recognized
recognized "exceptions,"
“exceptions,” which
which collectively
collectively are
are sometimes
case,
“privity” between
between the
the nonparty
nonparty and
and aa party
party to
to the
the prior
prior action.?
action.7
referred to as establishing "privity"

the "federal
“federal common
common law
law of
of
In addressing this issue, the Taylor court applied (1) the
preclusion” (because
(because the
the prior
prior judgment
judgment at
at issue
issue there
there was
was entered
by aa federal
court in
in aa
preclusion"
entered by
federal court
federal question case) (Taylor, supra, 553 U.S. at p. 891; see id. at p. 904; see also
Guerrero, supra, 28 Cal.App.5th at p. 1101), and (2) "due
“due process
process limitations”
that define
define
limitations" that
the maximum reach of nonparty preclusion (Taylor, supra, at p. 891; see id. at pp. 896896–
898, 900–901).
900-901). The parties here contend state preclusion law should play a role in
of Judge
Hornby’s 2009
2009 federal
court judgment,
judgment, with
with
determining the preclusive effect
effect of
Judge Hornby's
federal court
7
7

12

(Taylor, supra, 553 U.S. at p. 893; see id. at p. 894, fn. 8; accord, Barragan, supra, 32
Cal.4th at p. 253 [a prerequisite to applying claim preclusion or issue preclusion is that
Ca1.4th
“ ‘the
party against
against whom
whom the
the doctrine
is being
being asserted
asserted was
was aa party
party or
or in
in privity
privity with
with aa
"
'the party
doctrine is
party to
to the
the prior
prior proceeding'
proceeding’ "].)
”].)
party

The plaintiffs in the present case were not parties to the federal proceeding. Ford
Canada, however, argued in the trial court, and contends in its appellate brief, that two
exceptions to the general rule against nonparty preclusion recognized in Taylor apply

here, specifically (1) an exception allowing preclusion when a nonparty was
“ ‘adequately
” by
by someone
someone who
who was
was a party to the prior suit (Taylor, supra,
"
'adequately represented’
represented' "
553 U.S. at pp. 894–895),
894-895), and (2) an exception permitting preclusion when a nonparty
“ ‘assume[d]
” over
over the
the prior
prior action
action (id.
(id. at p. 895). We agree with plaintiffs that
"
`assume[d] control’
control' "

Ford Canada did not establish the applicability of either exception. (See Taylor, supra,
553 U.S. at pp. 906–907
906-907 [party who asserts claim or issue preclusion applies must
establish all necessary elements]; Hong Sang Market, Inc. v. Peng (2018) 20 Cal.App.5th

474, 489 [same].)
A.

Adequate Representation
the Supreme
Court stated
stated that,
that, "
“ ‘in
certain limited
limited circumstances,'
circumstances,’ aa
In Taylor, the
Supreme Court
'in certain

nonparty may
may be
be bound
bound by
by aa judgment
judgment because
because she
she was
was ‘adequately
represented by
by
nonparty
'adequately represented
someone with
with the
the same
same interests
interests who
who [wa]s
[wa]s aa party'
party’ to
to the
the suit.
suit. [Citation.]
[Citation.]
someone

Representative suits with preclusive effect on nonparties include properly conducted class
actions, [citation], and suits brought by trustees, guardians, and other fiduciaries,
[citation].” (Taylor,
[citation]."
(Taylor, supra, 553 U.S. at pp. 894–895.)
894-895.)

plaintiffs urging application of Maine law and Ford Canada arguing for California law.
But as
as to
to the
the question
of "privity"
“privity” or
or "nonparty
“nonparty preclusion"
preclusion” (see
(see Taylor, supra, 553 U.S.
But
question of
at p. 894, fn. 8), neither party argues, and the trial court did not hold, that state law
permits nonparty
nonparty preclusion
preclusion here
here on
on any
any ground
ground beyond
beyond the
the "exceptions"
“exceptions” recognized
recognized in
in
permits
Taylor. We therefore focus on the applicability of those exceptions and do not address
parties’ choice-of-law
choice-of-law arguments.
the parties'
13

Due process principles limit the circumstances in which representation may be
found
to be
be "adequate"
“adequate” for
purposes of
of nonparty
nonparty preclusion.
preclusion. (Taylor,
found to
for purposes
(Taylor, supra, 553 U.S. at

is
896–898, 900–901.)
“[a] party's
party’s representation
representation of
of aa nonparty
nonparty is
pp. 896-898,
900-901.) Specifically,
Specifically, "[a]
‘adequate’
preclusion purposes only if, at a minimum: (1) The interests of the
`adequate' for
for preclusion

nonparty and her representative are aligned, [citation]; and (2) either the party understood
herself to be acting in a representative capacity or the original court took care to protect
the interests of the nonparty, [citation]. In addition, adequate representation sometimes
requires (3) notice of the original suit to the persons alleged to have been represented,
[citation].” (Taylor,
[citation]."
(Taylor, supra, 553 U.S. at p. 900.)

When Judge Hornby entered judgment for defendants in 2009, there were no
certified classes in the federal action. (See In re New Motor Vehicles Canadian Export
Antitrust Litigation, supra, 632 F.Supp.2d at p. 63.) And none of the individual plaintiffs
remaining in the federal case was pursuing claims under California law. (Ibid.) The
question presented thus is whether the individual plaintiffs advancing claims under the

laws of other states (the federal non-California plaintiffs)—the losing parties to the
federal court judgment—adequately represented the California state court plaintiffs and

class members.
Judge Karnow, relying in part on decisions by some of the other state courts that
have considered the preclusion question since the 2009 entry of the federal court
here.8 We
We disagree.
judgment, found the Taylor test for adequate representation was met here.8

Judge Karnow
Karnow considered
considered the
the issue
issue of
of "adequate
“adequate representation”
as one
one
Judge
representation" as
component of a test of privity articulated in a California appellate decision, Citizens for
Open Access etc. Tide, Inc. v. Seadrift Assn. (1998) 60 Cal.App.4th 1053, 1070, but he
relied on
on the
the United
United States
Court’s decision
decision in
in Taylor as establishing the
relied
States Supreme
Supreme Court's
minimum requirements for a finding of adequate representation. An additional element
of the privity test stated in Citizens for Open Access and applied by Judge Karnow is a
requirement that
that "
“ ‘' "[t]he
“[t]he circumstances
circumstances [were]
[were] such
such that
that the
the nonparty
nonparty should
should reasonably
reasonably
requirement
have expected
to be
be bound
bound by
by the
the prior
prior adjudication."
adjudication.” ’' "
” (Citizens
(Citizens for Open Access,
have
expected to
supra, 60 Cal.App.4th at p. 1070.) Since we find the essential element of adequate
representation as defined in Taylor was not established here, we do not address the
8
8

14

1.

Alignment of Interests

As to the prerequisite element of aligned interests, it is true the interests of the
federal court plaintiffs and the California state court plaintiffs were aligned in the basic

sense that the two groups did not have opposing interests. (Cf. Hansberry v. Lee (1940)
43–44 (Hansberry) [no preclusion where relevant groups of property owners
311 U.S. 32,
32,43-44

had conflicting interests], cited in Taylor, supra, 553 U.S. at p. 900.) Both groups of
plaintiffs sought to establish that the defendant auto manufacturers conspired to keep
lower-priced cars from being exported from Canada to the United States, resulting in

higher vehicle prices. (See Automobile Antitrust Cases, supra, 1 Cal.App.5th at p. 131;
In re New Motor Vehicles Canadian Export Antitrust Litigation, supra, 632 F.Supp.2d at
p. 45.) And due to the coordination of discovery, the same body of evidence apparently
was available to both sets of plaintiffs.
Of course, the showing of aligned interests here is weaker than in the other state

courts that have addressed this question, all of which relied in part on the fact that the two
sets of plaintiffs at issue were advancing identical state law claims. (See Johnson II,
351, 353 [same Tennessee statutes at issue in federal and state
supra, 574 S.W.3d at pp. 351,353

cases]; Rasmussen, supra, at pp. 17–18
17-18 [federal and Wisconsin state-court plaintiffs
asserted the
the "same
“same claims"];
claims”]; Corso, supra, at p. 6 [federal and state cases involved
asserted
alleged "violations
“violations of
of the
the same
same New
New Mexico
Mexico statutes"];
statutes”]; Johnson I, supra, at pp. 5-6
5–6
alleged

[claims in federal and Tennessee state court were the same]; Maxwell, supra, at p. 4 [both
sets of plaintiffs relied on same Arizona statute]; Lerfald, supra, at p. 4 [federal and state
plaintiffs asserted claims under same Minnesota statute].)
That factor is not present here—none of the plaintiffs against whom summary
judgment was entered in the federal action asserted any claims under California state
law.9 We
We need not determine, however, whether the absence of that factor precludes a
law.9
parties’ arguments
arguments as
as to
to whether
whether the
the additional
additional requirement
requirement pertaining
pertaining to
to reasonable
reasonable
parties'
expectations was met.
issue but
but found
was not
not significant
significant because
because "the
“the
Judge Karnow noted this issue
found it
it was
elements
proving antitrust
antitrust claims
claims are
are the
the same
same across
across the
the states."
states.” As
As noted,
noted, however,
however,
elements for
for proving
9
9

15

finding of aligned interests, because we conclude below that the second essential element
representation—“either the
the party
party understood
understood herself
herself to
to be
be
of the Taylor test for adequate representation—"either

acting in a representative capacity or the original court took care to protect the interests of
the nonparty"
nonparty” (Taylor, supra, 553 U.S. at p. 900)—was not established here.
the

2.

Representative Capacity or Protection of Interests
a.

Representative Capacity

Ford Canada did not meet its burden to show the federal court plaintiffs asserting

claims under the laws of states other than California (the parties to the summary
judgment) understood they were acting as representatives of the named California state
court plaintiffs or the members of the California state court class (i.e., persons who
purchased vehicles in California). As discussed, no certified classes existed in the federal
action when the summary judgment was entered, so it is not clear the individual federal
court plaintiffs could have believed they were representing anyone else at that point.
894–895 [adequate representation exception is
(See Taylor, supra, 553 U.S. at pp. 894-895

typified by class actions]; Corso, supra, at p. 7 [New Mexico trial court concludes that,
because federal
were "never
“never properly
properly certified,"
certified,” federal
plaintiffs "could
“could not
not have
have
because
federal classes
classes were
federal plaintiffs
as class
class representatives”].)
thought their actions were as
representatives"].)

More to the point for our purposes, the remaining federal court plaintiffs had never
even purported to serve as representatives for any California vehicle purchasers seeking

damages flowing from the alleged conspiracy. The certified classes that existed earlier in
the federal proceeding included a separate damage class for each involved state, with
different class representatives. (See In re New Motor Vehicles Canadian Export Antitrust
21–23.) The plaintiffs who remained in federal court
Litigation, supra, 243 F.R.D. at pp. 21-23.)

when summary judgment was entered could not have brought claims under California
law.'°
law.10

he concluded later in his opinion that California applies a different standard of proof as to
the causation element.
We note
note that
that some
some of
of the
the state
state courts
courts that
that gave
gave Judge
Hornby’s summary
summary
We
Judge Hornby's
judgment decision
decision preclusive
preclusive effect
distinguished the
the California
California plaintiffs'
plaintiffs’ situation
situation on
on
judgment
effect distinguished
10
1°

16

The evidence cited by Ford Canada on this point (some of which Judge Karnow
also cited) does not establish the federal non-California plaintiffs understood they were
acting in a representative capacity with respect to the California state court plaintiffs.
Ford Canada points to the discovery coordination order entered in 2004 by the federal
and state courts, which, to reduce duplication of expense and effort, designated the
federal
action the
the "lead
“lead case for discovery and discovery-related pretrial scheduling"
scheduling” and
and
federal action

allowed parties in the state court proceedings to participate in discovery in the federal
action. (Italics added.) The order does not state or suggest that a party to a state court
case will
will be
be bound
bound by
by the
the federal
court’s non-discovery
non-discovery rulings in the absence of a
case
federal court's

certified federal court class.
Ford Canada also notes the attorneys for the plaintiffs in the federal and state
actions entered
what one
one of
of them
them described
described as
as aa "joint
“joint prosecution
prosecution agreement"
agreement” that
that was
was
actions
entered what
“intended to
to protect
protect the
the interests
interests of
of all
all plaintiffs."
plaintiffs.” The
agreement itself
itself apparently
apparently was
was
"intended
The agreement
kept confidential and is not in the record, but statements made by counsel in the trial

court suggest it addresses such matters as coordination of discovery and expert
preparation. We cannot conclude from this evidence that there was an agreement by the
federal court plaintiffs to represent the state court plaintiffs. Nor does the participation of

California state court counsel in other joint activities, such as settlement discussions with
some defendants, establish that one group of plaintiffs represented the other.

b.

Court’s Protection
of Nonparty's
Nonparty’s Interests
Court's
Protection of
Interests

Ford Canada
Canada also
also did
did not
not establish
that, for
purposes of
of nonparty
nonparty preclusion,
preclusion, "the
“the
Ford
establish that,
for purposes
original court
court took
took care
care to
to protect
protect the
the interests
interests of
of the
the nonparty"
nonparty” (Taylor,
original
(Taylor, supra, 553 U.S.
noted that
that Judge
Hornby "sent
“sent updates
updates to
to state
state
at p. 900). On this point, Judge Karnow noted
Judge Hornby
judges to
to keep
keep them
them informed
informed of
of developments
developments in
in the
the federal
action.” Ford
Ford Canada
Canada also
also
judges
federal action."

this basis. (See Corso, supra, at p. 8 [noting federal court plaintiffs asserting claims
under New Mexico law did not seek dismissal from the federal action, unlike the federal
California plaintiffs]; Maxwell, supra, at p. 5 [Arizona]; Lerfald, supra, at p. 6
[Minnesota].)
17

mentions these updates, as well as referring again to the coordination of discovery that
we have discussed above.
Those factors do not provide a basis for nonparty preclusion here. The way Judge
Hornby sought to protect the interests of the California plaintiffs was to carve out and
dismiss the California-law claims from the federal case because, in his view, California
law differed from that of the other involved states and it would be preferable for the
California state courts to resolve unique and unsettled questions of California law. (In re
New Motor Vehicles Canadian Export Antitrust Litigation, supra, 609 F.Supp.2d at
p. 107.)
107.) To
now rely
rely on
on Judge
Hornby’s actions
actions as
as aa basis
basis for
To now
Judge Hornby's
for precluding the California

plaintiffs from pursuing their claims in state court would stand that ruling on its head.
We note that, when Taylor referred to protection of interests by the prior court as a
path to showing adequate representation (see Taylor, supra, 553 U.S. at pp. 896, 900), it
cited Richards v. Jefferson County (1996) 517 U.S. 793, 801–802,
801-802, which in turn cited
Hansberry, supra, 311 U.S. at p. 43. The Richards court
court stated:
stated: "Our
“Our opinion
opinion [in
[in

Hansberry] explained that a prior proceeding, to have binding effect on absent parties,
would at
at least
least have
have to
to be
be ‘so
devised and
and applied
applied as
as to
to insure
insure that
that those
those present
present are
are of
of the
the
would
'so devised

same class as those absent and that the litigation is so conducted as to insure the full and
issue.’ "” (Richards,
(Richards, supra, 517 U.S. at p. 801, italics
fair consideration of the common issue.'
added, citing Hansberry, supra, 311 U.S. at p. 43; see Richards, supra, 517 U.S. at

p. 802.) As discussed, Judge Hornby took an approach that did not include full
consideration of
of the
the federal
California plaintiffs'
plaintiffs’ claims.
claims. As
As to
to the
the pivotal
pivotal question
question of
of
consideration
federal California

antitrust injury presented on summary judgment, he decided not to determine what
California law provides. (In re New Motor Vehicles Canadian Export Antitrust
Litigation, supra, 609 F.Supp.2d at p. 107.) There is no basis for preclusion.
3.

Notice

Because the essential second element of the Taylor test for adequate representation
has not been established here, we need not address the third element specified in Taylor,
i.e., the extent to which notice of the federal action was required, and whether adequate

18

notice was provided to the California state court plaintiffs and class members here. (See
Taylor, supra, 553 U.S. at p. 900.)

B.

Control
Apart from adequate representation, Ford Canada briefly invokes another

exception noted in Taylor that
that allows
allows preclusion
preclusion when
when aa nonparty
nonparty "
“ ‘assume[d]
control’ "
”
`assume[d] control'

over the prior action (Taylor, supra, 553 U.S. at p. 895). Judge Karnow did not rely on
this control exception as a separate ground for applying claim preclusion, although he
stated (as
(as part
part of
of his
his discussion
discussion of
of the
the parties'
parties’ expectations)
that "[p]laintiffs'
“[p]laintiffs’ counsel
counsel
stated
expectations) that

here had a financial interest in and controlled the conduct of the federal litigation,
suggesting their
their clients
clients should
should have
have expected
to be
be bound
bound by
by the
the result
there.” We
hold
suggesting
expected to
result there."
We hold

the control exception does not provide a basis for preclusion here because Ford Canada
did not show the California state-court plaintiffs controlled the federal action.
In Montana v. United States (1979) 440 U.S. 147 (Montana) (cited by Taylor,

supra, 553 U.S. at p. 895 as the basis for this exception), the plaintiff in the second case,
the United States, had exercised extensive control over the first action. (Montana, supra,
440 U.S. at p. 155.) Specifically, the United States required the first action to be filed,
action, paid
paid the
the attorneys'
attorneys’ fees
and costs,
costs,
reviewed and approved the complaint in that action,
fees and
and directed the conduct of the appeal taken in the first case. (Ibid.) In contrast, Ford

Canada has pointed to no evidence in the record showing the California state court
plaintiffs (much less the members of the California class) assumed control over the
federal action, such as by directing the federal court plaintiffs as to the steps they should

take in advancing the litigation.
Instead, Ford Canada relies again on the fact that counsel for the plaintiffs in the
federal and state actions cooperated pursuant to a joint prosecution agreement. We are

not persuaded that such cooperation establishes that the plaintiffs in each case controlled
the prosecution of the other actions. We note that, even within the group of federal court
plaintiffs, different courses of action were sometimes taken, such as the decision by the
federal California plaintiffs to seek dismissal of their claims, while other federal court

plaintiffs proceeded to summary judgment. To the extent some of the state courts
19

addressing this issue found a sufficient degree of control in these circumstances, we
respectfully disagree with their conclusions. (See Johnson II, supra, 574 S.W.3d at
p. 355 [Tennessee]; Rasmussen, supra, at p. 25 [Wisconsin]; Lerfald, supra, at p. 4
4–5 [New Mexico court finds no control];
[Minnesota]; but see Corso, supra, at pp. 4-5

Maxwell, supra, at p. 4 [Arizona court finds no control].)
Finally, we do not agree with Ford Canada that Aronow v. Lacroix (1990) 219
Cal.App.3d 1039 supports a finding that plaintiffs here are precluded on a freestanding
control theory. In Aronow, the appellate court discussed whether a party before it
(Aronow) had exercised control over a prior action, but did so in the context of assessing

whether Aronow reasonably should expect to be bound by the prior judgment (id. at
1050–1051), and only after determining a party to the prior action had adequately
pp. 1050-1051),
represented Aronow's
Aronow’s interests,
interests, which
which the
the court
court held
held was
was aa requirement
requirement of due process
represented

(id. at pp. 1049–1050).
1049-1050). In that context, the Aronow court noted control did not have to be
complete (id. at p. 1050)
and stated
stated Aronow
Aronow "at
“at least
least had
had the
the power
power to
to suggest
suggest courses
of
1050) and
courses of
action” in
the prior
prior case
(id. at pp. 1050-1051).
1050–1051). We do not read Aronow as establishing
action"
in the
case (id.
that aa nonparty's
nonparty’s ability
ability to
to suggest
suggest courses
courses of
of action
action to
to aa party
party in
in aa prior
prior case,
case, without
without
that

more and without a showing of adequate representation, is enough to bind the nonparty to
case.11
the result in the prior case."
Because the essential element of privity is missing, neither claim preclusion (the
basis for
Karnow’s ruling)
ruling) nor
nor issue
issue preclusion
preclusion (the
(the alternative
alternative ground
ground for
basis
for Judge
Judge Karnow's
for

affirmance urged by Ford Canada) applies here. (See Taylor, supra, 553 U.S. at
893, 894, fn. 8; Barragan, supra, 32 Ca1.4th
Cal.4th at p. 253.) We therefore will reverse the
pp. 893,894,
judgment.12
judgment.12
11

" Because Ford Canada did not show the California state court plaintiffs exercised
sufficient control over the federal action to provide a basis for preclusion, we do not
address plaintiffs'
plaintiffs’ argument
argument that
that the
the Taylor control exception can only support issue
address
preclusion, not claim preclusion. (See Montana, supra, 440 U.S. at p. 154.)
12
12

Since we reverse on the grounds discussed in the text, we do not address
plaintiffs’ other
other asserted
asserted grounds
grounds for
reversal, including
including their
their arguments
arguments that
that
plaintiffs'
for reversal,
(1) principles of waiver and judicial estoppel bar Ford Canada from invoking claim and
20

III. DISPOSITION

The judgment in favor of Ford Canada is reversed. The matter is remanded to the
trial court
with directions
directions to
to enter
an order
order denying
denying Ford
Ford Canada's
Canada’s request
request for entry of
trial
court with
enter an

judgment. Plaintiffs shall recover their costs on appeal.

issue preclusion, (2) the federal and California actions involved different causes of action,
and (3) constitutional or statutory provisions limit the application of preclusion doctrine
here.
21

_________________________
STREETER, Acting P.J.

We concur:

_________________________
TUCHER, J.

_________________________
BROWN, J.

A152295
22

APPENDIX B

FILED

1

San Francisco County Superior Court

2

JUN 1 6 2017

CLERtr

3

BY:

4

COURT
Deputy Clerk

SUPERIOR COURT OF CALIFORNIA

5

COUNTY OF SAN FRANCISCO

6
7

COORDINATION PROCEEDING SPECIAL
TITLE (Cal. R. Ct. 1550(b))

8
9

CJC-03-004298
AUTOMOBILE ANTITRUST CASES I, II
ORDER GRANTING DEFENDANT'S
MOTION FOR ENTRY OF JUDGMENT

10
11

J.C.C.P. No. 4298

This document relates to:
All Actions

12
13

My Order Denying Summary Judgment entered May 16, 2017 provides background for

14

the present motion to have me enter judgment' on the basis of claim and issue preclusion, based

15

on the related federal MDL action. See In re New Motor Vehicles Canadian Export Antitrust

16

Litigation, 609 F. Supp. 2d 104 (D.Me. 2009). I heard argument June 15, 2017.

17
18

These coordinated cases were filed at roughly the same time as a related federal case, In
re New Motor Vehicles Canadian Export Antitrust Litigation, 632 F. Supp. 2d 42 (D.Me. 2009)

19
(Hornby, J.). The federal case included indirect purchaser claims under various state laws,
20
21

including California's Cartwright Act. See Kuntz Dec. Ex. 1 ¶¶ 93, 116. For years, commencing

22

around 2004, the state and federal cases were litigated together, using the federal case as the lead

23

case. In 2009, just before the federal court decided a summary judgment motion brought by

24
25
26

1 The present motion is not titled one for judgment on the pleadings, for example, but no party has complained about
the nature of the motion, or disputed that if Ford Canada is right on the merits of the arguments presented, it is
entitled to judgment now. See e.g., Bucur v. Ahmad, 244 Cal. App. 4th 175 (2016) (motion for judgment on the
pleadings permissible on res judicata grounds).
J.C.C.P. No. 4298; CJC-03-004298
1

1

defendants, but after the briefing and argument on it was complete—done by the lawyers here

2 and on behalf of plaintiffs here—the California plaintiffs moved to voluntarily dismiss their
3

California law claims under FRCP 41. See In re New Motor Vehicles Canadian Export Antitrust

4
Litigation, 609 F. Supp. 2d 104 (D.Me. 2009). Judge Hornby ordered the requested dismissal
5
6

(without prejudice). Id at 107.

7

Judge Homby then granted Ford Canada's motion for summary judgment on the

8

remaining state law claims, finding that the plaintiffs were unable to prove causation. In re New

9

Motor Vehicles, 632 F. Supp. 2d at 63. Ford Canada now brings this motion for entry of

10
11

judgment to dismiss the coordinated California suits on res judicata and collateral estoppel
grounds.

12
13
14
15

The motion is granted.
Waiver
Plaintiffs tell me Ford Canada has waived the defense of res judicata because it was not

16
timely raised. The federal action was dismissed and became final in 2009; this motion some 8
17
18

years later is thus untimely, plaintiffs suggest. But there is no authority for this position. There is

19

no argument actually related to the elements of waiver. Compare e.g., DRG/Beverly Hills, Ltd. v.

20

Chopstix Dim Sum Cafe & Takeout III, Ltd., 30 Cal. App. 4th 54, 59 (1994) ("Waiver is the

21

intentional relinquishment of a known right after full knowledge of the facts and depends upon

22

the intention of one party only.").

23
24
25
26

Res Judicata
Although some opinions employ the term `res judicata' to cover both claim and issue
preclusion, e.g., People v. Barragan, 32 Cal. 4th 326, 252-53 (2004), it may be more useful to
2

J.C.C.P. No. 4298; CJC-03-004298

1 separate these doctrines. See generally, Bucur v. Ahmad, 244 Cal. App. 4th 175, 185 (2016);
2
3

Daniels v. Select Portfolio Servicing, Inc., 246 Cal. App. 4th 1150, 1163-64 (2016); DKN
Holdings LLC v. Faerber, 61 Cal. 4th 813, 824 (2015).

4

12

Under California law, " "[t]he doctrine of res judicata gives certain conclusive effect to
a former judgment in subsequent litigation involving the same controversy." ' " (Boeken
v. Philip Morris USA, Inc. (2010) 48 Cal.4th 788, 797, 108 Cal.Rptr.3d 806, 230 P.3d
342.) "Res judicata precludes the relitigation of a cause of action only if (1) the decision
in the prior proceeding is final and on the merits; (2) the present action is on the same
cause of action as the prior proceeding; and (3) the parties in the present action or parties
in privity with them were parties to the prior proceeding." (Zevnik v. Superior Court
(2008) 159 Cal.App.4th 76, 82, 70 Cal.Rptr.3d 817.) Res judicata bars the litigation not
only of issues that were actually litigated in the prior proceeding, but also issues that
could have been litigated in that proceeding. (Busick v. Workmen's Comp. Appeals Bd.
(1972) 7 Cal.3d 967, 975, 104 Cal.Rptr. 42, 500 P.2d 1386.) "A predictable doctrine of
res judicata benefits both the parties and the courts because it 'seeks to curtail multiple
litigation causing vexation and expense to the parties and wasted effort and expense in
judicial administration.' " (Mycogen Corp. v. Monsanto Co. (2002) 28 Cal.4th 888, 897,
123 Cal.Rptr.2d 432, 51 P.3d 297.)

13

Franceschi v. Franchise Tax Bd., 1 Cal. App. 5th 247, 257 (2016).

14

As Franceschi notes, where, as here, "an action is filed in a California state court and the

5
6
7
8
9
10
11

15
16

defendant claims the suit is barred by a final federal judgment, California law will determine" the
res judicata effect. Id. (One impact of this is that a federal judge's views of that effect are not

17
18
19

conclusive, an issue I address below.)

Final judgment on the merits

20
The parties do not dispute that there is a final judgment on the merits in the federal
21
22

matter. Compare Boccardo v. Safeway Stores, Inc., 134 Cal. App. 3d 1037, 1042 (1982).

23

Summary judgment was granted on the basis that plaintiffs failed to establish violation of

24

antitrust and consumer protection statutes. In re Motor Vehicles, 632 F. Supp. 2d at 45.

25
26
3

J.C.C.P. No. 4298; CJC-03-004298

1

Same cause of action

2

"For the purposes of res judicata, California defines a cause of action according to the

3

`primary right' theory: the violation of a single primary right constitutes a single cause of action

4
even though it may entitle the injured party to diverse forms of relief." Boccardo v. Safeway
5
6

Stores, Inc., 134 Cal. App. 3d 1037, 1043 (1982) (citing Wulfien v. Dolton, 24 Cal. 2d 891, 895-

7

96 (1944)). "A 'cause of action' is based upon the harm suffered, as opposed to the particular

8

theory asserted by the litigant." Id (citing Slater v. Blackwood, 15 Cal. 3d 791, 795 (1975)).

9

See also Franceschi, 1 Cal. App. 5th at 257.

10
11

The state action and the federal action arise out of identical factual circumstances.
Compare, e.g., Consolidated Amended Class Action Complaint (CC) ¶¶ 63-89 with Kuntz Dec.

12
13
14

Ex. 1 ifig 42-68. The claims in the federal case were those based on 19 state antitrust and
consumer protection statutes that allow indirect purchasers to recover relief. In re New Motor

15

Vehicles, 632 F. Supp. 2d at 44. The claims in the state case are based on California's antitrust

16

and consumer protection statutes, and the Cartwright Act (which serves as the predicate for

17 violation of the Unfair Competition Law). CC ¶¶ 97-115. The harm alleged in both cases is that
18
19

plaintiffs suffered damages when they had to pay more to purchase their vehicles than they
would have absent defendant's illegal conduct. CC ¶ 96; Kuntz Dec. Ex. 1 ¶ 69. See e.g.,

20
21

Boccardo 134 Cal. App. 3d at 1043 ("The primary right alleged to have been violated in the

22

instant case is appellants' right to be free from economic injury caused by an unlawful conspiracy

23

to fix meat prices").

24

The federal and state cases involve the same cause of action.

25
26
4

J.C.C.P. No. 4298; CJC-03-004298

1

Impact of Supplemental Jurisdiction

2

While plaintiffs' opposition does not directly take on the 'same cause of action' element

3

of the res judicata test, they do make an argument that Judge Hornby's express exclusion of the

4
California state cases from his order on summary judgment blocks what would otherwise be the
5
6

effect of res judicata. Opposition at 5 et seq. This is based on the notion that when a federal court

7

declines in its discretion to take a state claim under doctrines of pendant or supplemental

8

jurisdiction,2 claim preclusion does not apply. RESTATEMENT (SECOND) OF JUDGMENTS § 26

9

(1)(b) & comm. b (1982); Boccardo v. Safeway Stores, Inc., 134 Cal. App. 3d 1037, 1047

10

(1982).

11

Ford Canada correctly notes that plaintiffs' primary authority, Louie v. BFS Retail &

12
13
14

Commercial Operations, LLC, 178 Cal. App. 4th 1544, 1553 (2009) does not help, because there
the parties expressly reserved issues for the state court (here by contrast Ford Canada fought

15

against the FRCP 41 dismissal without prejudice). Indeed, Louie patently disclaimed ruling on

16

the res judicata issue. Id. ("we need not address all these points....").

17

Plaintiffs have two other cases, as well, but both have been distinguished:

18

Appellant's reliance on Craig v. County of Los Angeles (1990) 221 Cal.App.3d 1294 [271
Cal.Rptr. 82], and Merry v. Coast Community College Dist. (1979) 97 Cal.App.3d 214
[158 Cal.Rptr. 603] is misplaced. In those cases the federal and state claims did not
involve the same primary right. Moreover, the plaintiff in each case abandoned the
federal lawsuit after the federal court declined to hear the state law claims.

19
20
21
22

Acuna v. Regents of Univ. of California, 56 Cal. App. 4th 639, 650 (1997). See also City of Simi
Valley v. Superior Court, 111 Cal. App. 4th 1077, 1084 (2003) (where same primary right

23
24

involved, res judicata applies). The relatively recent opinion in Franceschi phrases the legal test

25
Charles Alan Wright, et al., FEDERAL PRACTICE & PROCEDURE, "Jurisdiction And Related Matters" § 3567.3 (3d
ed. 2017) ("supplemental" jurisdiction doctrines developed separately in case law as "pendent" and "ancillary"
jurisdiction).
2

26

5

J.C.C.P. No. 4298; CJC-03-004298

1

thusly:

2
The rule in California is that " [i]f ... the court in the first action would clearly not have
had jurisdiction to entertain the omitted theory or ground (or, having jurisdiction, would
clearly have declined to exercise it as a matter of discretion), then a second action in a
competent court presenting the omitted theory or ground should be held not precluded.' "
[Citations]

3
4
5
6

Franceschi v. Franchise Tax Bd., 1 Cal. App. 5th 247, 260 (2016), citing among things

7 RESTATEMENT (SECOND) OF JUDGMENTS § 25. Here, the federal court did the opposite—it
8

entertained the state claims.3 Thereafter, as in Franceschi, plaintiffs here "deliberately elected

9

not to pursue" their state claims in the federal litigation. 1 Cal. App. 5th at 263.

10
11

The fundamental rule as discussed at some length in Franceschi is that when the doctrine
of primary rights identifies a cause of action litigated in federal court with that proposed to be

12
13

later litigated in state court, res judicata bars the latter claim. Plaintiffs can ask the federal judge

14

to keep the state claims to ensure they are not later barred, 1 Cal. App. 5th at 263-64, but they

15

cannot split the cause of action; that is, they cannot, through the expedient of having the federal

16

court dismiss their claims at their behest, try the same cause of action again in another forum.4

17
18

I conclude that the federal court's actions on accepting the California state cases and later
granting plaintiff's motion to dismiss them does not impact the 'same cause of action' analysis.

19
Same parties or parties in privity
20
The lawyers here were the lawyers in the federal case, for years, through the entire

21
22

briefing of and argument on the ultimate summary judgment motion.5 Every step in the federal

23

litigation—up to the moment, after argument on the summary judgment motion, that the

24
25
26

True, at plaintiffs' request it dismissed the California cases without prejudice, an issue I return to below.
Charles Alan Wright, et al., 18 FEDERAL. PRACTICE & PROCEDURE § 4412 "Claim Preclusion—Limitations of First
Proceedings," (3d ed. 2017) (plaintiffs should invoke federal court's supplemental jurisdiction on pain of res
judicata bar [after federal adjudication] if the state claims are brought in state court).
5
Transcript of Argument of June 15, 2017 (rough) at 13. This is not contested by plaintiffs.
3

4

6

J.C.C.P. No. 4298; CJC-03-004298

1

California plaintiffs secured their dismissal—was taken on behalf of interests identical as

2

between the plaintiffs in this case and those in the federal case.

3

Because "[Arivity is not susceptible of a neat definition . . . the determination of privity

4
5
6

depends upon the fairness of binding appellant with the result obtained in earlier proceedings in
which it did not participate." Citizens for Open Access to Sand & Tide, Inc. v. Seadrift Assn., 60

7

Cal. App. 4th 1053, 1070 (1998) (internal quotation marks and citations omitted). So we ask if

8

(1) the nonparty had an identity or community of interest with, and adequate representation by,

9 the party in the first action, and (2) the circumstances were such that the nonparty should
10
11

reasonably have expected to be bound by the prior adjudication. Id.
a) Adequate representation or community of interest

12
13
14.

The Supreme Court has held that for preclusion purposes, there is adequate
representation by a party of a nonparty if, at a minimum, "(1) The interests of the nonparty and

15

her representative are aligned, and (2) either the party understood herself to be acting in a

16

representative capacity or the original court took care to protect the interests of the nonparty."

17

Taylor v. Sturgell 553 U.S. 880, 990 (2008). Adequate representation may also require

18
19

"(3) notice of the original suit to the persons alleged to have been represented." Id. Plaintiffs
contend that there was no adequate representation because the non-California federal plaintiffs

20
21

did not sue on behalf of any California consumers, made no claims pertaining to California

22

consumers, and asserted no claims under California law. Opposition at 10. Of course, if the

23

federal plaintiffs had sued on behalf of California consumers, making claims on their behalf and

24

asserting claims under California law—then we would have had the identical parties in both

25

cases; obviating a privity enquiry. The fact that the parties are not identical cannot be held to

26

show that the parties are not in privity.
7

J.C.C.P. No. 4298; CJC-03-004298

1
2

After the federal summary judgment, other state courts found privity with the federal
plaintiffs. Kuntz Dec. Ex. 10 at 3-6, and Ex. 11 at 2-6.

3

Aligned interests. The Arizona court found, for example, that the federal and state

4
5
6

plaintiffs' interests were aligned, based on several factors: they made the same claims under the
same state statute against the same defendants, based on the same legal theory and record,

7

coordinated discovery6, and shared costs and fees. Kuntz Dec. Ex. 11 at 4. Plaintiffs' counsel

8

appeared in the federal action and were part of a joint prosecution agreement which was intended

9 to protect the interests of all plaintiffs. Id at 5. Except for asserting claims under the same state
10
11

statute, all of the other factors are present for the California plaintiffs. Although no California
state law claim remained in the federal action, the elements for proving antitrust claims are the

12
13

same across the states. In re New Motor Vehicles, 632 F. Supp. 2d at 46-47,63.
Representative capacity. The Arizona court found that the federal plaintiffs clearly

14
15

understood themselves to be acting in a representative capacity, because plaintiffs' counsel

16

appeared on plaintiffs' behalf in the federal action, and were part of a joint prosecution

17 agreement intended to protect the interests of all plaintiffs. Kuntz Dec. Ex. 11 at 5. This shows
18
19

that plaintiffs' counsel was involved in coordination with federal plaintiffs in how the federal
action was conducted. Id Again, the same factors apply to the California plaintiffs. Their

20
21

counsel was also part of the federal joint prosecution agreement—plaintiffs' counsel chaired the

22

Executive Committee and led the federal prosecution. MPA at 17. As Ford Canada points out,

23

this shows more than just passive knowledge or assurance that the California plaintiffs' interests

24 would be protected. Id. For the same reasons, the California plaintiffs also had notice of the
25
26

As did all federal plaintiffs prior to the motion for summary judgment, in a Joint Coordination Order. In re New
Motor Vehicles, 609 F. Supp. 2d at 106.

6

8

J.C.C.P. No. 4298; CJC-03-004298

original suit.
2
3

Court protected interests. Finally, it is clear that Judge Hornby took care to protect the
interests of nonparty state plaintiffs. He sent updates to state judges to keep them informed of

4
developments in the federal action. MPA at 18.
5
b) Reasonable expectation to be bound

6

It is entirely clear, and after oral argument conceded, that at least up to April 2009 the

7
8

California plaintiffs expected to be bound by the decisions of the federal court.? Indeed, had

9

Judge Hornby refused their FRCP 41 motion to dismiss, they well knew they would have been

10
11

bound by his rulings. The double twist here is that they were dismissed and Judge Hornby
himself was under the impression that this would allow plaintiffs to proceed in California state

12
13
14

court. Judge Hornby stated that any "judgment in the defendants' favor in this court on the
California state law claims will not have collateral estoppel in the California lawsuit as to anyone

15

other than these two individual plaintiffst81 . . . A judgment here will have no binding effect on

16

whether to certify a class in California state court and no effect on summary judgment there as to

17 other California indirect purchasers." In re New Motor Vehicles, 609 F. Supp. 2d at 106. This
18
19

view is dicta, but plaintiffs tout it as pretty good evidence of what a "reasonable expectation"
was at the time. But the issue is ultimately one of state law, and Judge Hornby may or may not

20
21

be familiar with this state's peculiar primary rights doctrine9 which girds its res judicata doctrine;

22
23
24
25
26

Transcript, above n.5, at 30, 32, 36, 40.
were only two California plaintiffs named in the federal action.
9 The doctrine is entirely notorious. Perhaps its first mention, probably of a concept distinct from that in play today,
is Leese v. Clark, 18 Cal. 535, 559 (1861). Around the time it became fully embraced in California, one
commentator wrote "primary right, which is apparently thought of as a simple and precise thing, turns out to be
complex and indefinite. It means what the person using the term makes it mean" 0. L. McCaskill, "Actions and
Causes of Action," 34 Yale L.J. 614 (1925), quoting Clark, The Code Cause of Action, 33 Yale L.J. 817, 826 (1924).
More recently our Supreme Court noted that "the primary right theory is notoriously uncertain in application.
`Despite the flat acceptance of the ... theory ... by California decisions, the meaning of 'cause of action' remains
7

8 There

9

J.C.C.P. No. 4298; CJC-03-004298

1 and his views must give way to the views of our courts of appeal on what makes for a
2 "reasonable expectation to be bound."
3
For example, a "'nonparty should reasonably be expected to be bound if he had in reality
4
contested the prior action even if he did not make a formal appearance,'" Rodgers v. Sargent
5
Controls & Aerospace, 136 Cal. App. 4th 82, 92 (2006). Some plaintiffs here actually did
6
7 contest the prior action: they filed an opposition brief, argued the summary judgment motion,
8 and took part in each step in the federal case up to that. Plaintiffs' counsel here had a financial
9

interest in and controlled the conduct of the federal litigation, suggesting their clients should

10 have expected to be bound by the result there. Aronow v. Lacroix,
219 Cal. App. 3d 1039, 1050
11
(1990).
12
The issue is often phrased as one of due process, Mooney v. Caspari, 138 Cal. App. 4th
13
704, 718 (2006), and the questions is thusly posed, is it fair to deem present plaintiffs practically
14
15

speaking represented in the prior action? In effect, were the "same legal rights" being litigated?

16

Citizens for Open Access to Sand & Tide, Inc. v. Seadrift Ass'n, 60 Cal. App. 4th 1053, 1069

17 (1998).
18
19

At least through argument on summary judgment, the legal rights and interests were
indisputably identical. The only means by which one could argue otherwise would be to shift to

20
21

the moment after the FRCP 41 dismissal, and note that California law, as such, was not

22

ultimately adjudicated by Judge Hornby; i.e., his summary judgment order did not address the

23

California claims as such. This is the approach plaintiffs take. Opposition at 10 et seq.1° The

24
25
26

elusive and subject to frequent dispute and misconception."' Baral v. Schnitt, 1 Cal. 5th 376, 395 (2016) (citations
omitted).
10 See also, Transcript, above n.5 at 40. This position with its focus on specific aspects of a cause of action, may be
an artefact of conflating claim and issue preclusion; in the latter, under the doctrine of collateral estopple, actual
J.C.C.P. No. 4298; CJC-03-004298
10

1

pitch is that because as of the FRCP 41 withdrawal no federal plaintiffs cared about issues or

2

legal theories unique to California state law claims, none of those federal plaintiffs could be

3

relied on, thereafter, to protect the interests of the California plaintiffs.

4
But to rely on this to defeat res judicata would be an end run around the primary rights
5
6

analysis set out above. True, Judge Hornby's orders did not determine aspects of California law

7

(such as this state's apparent presumption regarding damages11)—but these are irrelevant to the

8

analysis of whether the same cause of action exists in two courts.12 In short, the only way one

9

would not reasonably expect to be bound would be because one had failed to employ the primary

10
11

rights analysis in one's understanding of res judicata.
Privity is, in the end, a matter of the relationships between litigants. That relationship did

12
13
14

not change as a result of the FRCP 41 order: as they had been through argument on the summary
judgment motion, the parties, and their lawyers, were pressing the same legal interests.

15

A final word on plaintiffs' use of Judge Hornby's FRCP 41 dismissal and his view that it

16

did not preclude subsequent California suit. The 1982 Restatement does help plaintiffs' view, as

17

it states that claim splitting is allowed if the "court in the first action has expressly reserved the

18
19

plaintiffs right to maintain the second action...." RESTATEMENT (SECOND) OF JUDGMENTS § 26
(1.982) (1)(b) & comm. b. But in the end, it is the second court—this state court, in this

20
21

instance—that decides the preclusive effect of the first judgment. Louie, 178 Cal. App. 4th at

22

1560 ("the federal court conducting the class action "cannot predetermine the res judicata effect

23

of the judgment. This effect can be tested only in a subsequent action." [Citations; internal

24

litigation of the issue is required; but not, of course, under res judicata claim preclusion. Daniels v. Select Portfolio
Servicing, Inc., 246 Cal. App. 4th 1150, 1164 (2016); Lucido v. Superior Court, 51 Ca1.3d 335, 341 (1990).
11 B. W.I. Custom Kitchen v. Owens-Illinois, Inc., 191 Cal. App. 3d 1341, 1350-51 (1987).
12 That is, it doesn't matter what the forms of relief sought or theories of liability are. Boeken v. Philip Morris USA,
Inc., 48 Cal. 4th 788, 798 (2010); Boccardo v. Safeway Stores, Inc., 134 Cal. App. 3d 1037, 1043 (1982). See
generally, RESTATEMENT (SECOND) OF JUDGMENTS § 25 & comm. a (1982).
J.C.C.P. No. 4298; CJC-03-004298
11

25
26

1

quotes omitted]). There is non-California authority that the first court nevertheless has the power

2

to limit (as opposed to expand) the preclusive effect of its judgment,13 as signaled by e.g., a

3

dismissal "without prejudice." But our courts have nevertheless found res judicata effect of a

4
dismissal "without prejudice". E.g. City of Simi Valley v. Superior Court, 111 Cal. App. 4th
5
6

1077, 1079 (2003) (first court "dismissed the state causes of action (wrongful death and violation

7 of state constitution) without prejudice."). The rationale behind these lines of authority appear to
8

be a concern that litigants be afforded a meaningful opportunity to litigate the claims. E.g.,

9

Teamsters Local 282 Pension Trust Fund v. Angelos, 762 F.2d 522, 525 (7th Cir. 1985). Here,

10
11

they were afforded that opportunity: all the way though argument on the summary judgment
motion in federal court; until they voluntarily decided to abandon that forum.

12
In the end, the main purpose of res judicata is to protect not just defendants subject to

13
14

repeat litigation,I4 but also more generally to inhibit "multiple litigation causing vexation and

15

expense to the parties and wasted effort and expense in judicial administration."15 These

16

purposes would be frustrated if courts were to allow plaintiffs, at their option, to leave a forum

17 where they have a full opportunity to litigate all their claims, have that case go to final judgment,
18

and yet have plaintiffs then engage in further suits on the same cause of action.

19

I conclude that res judicata bars litigation of this case.

20
21
22
23
24
25
26

E.g., In re Engle Cases, No. 3:09-CV-10000-J-32, 2009 WL 9119991, at *12 (M.D. Fla. Nov. 27, 2009.
§ 26 comm. a.
15 Mycogen Corp. v. Monsanto Co., 28 Cal. 4th 888, 897 (2002) (emphases in original, citation and internal quotes
omitted).
13

14 RESTATEMENT (SECOND) OF JUDGMENTS

12

J.C.C.P. No. 4298; CJC-03-004298

1

Issue Preclusion

2
3

While I need not reach issue preclusion or collateral estopple, to assist full appellate
review16 I provide my views. Ford Canada argues that the causation issue is the subject of

4
collateral estopple.
5

8

Issue preclusion prohibits the relitigation of issues argued and decided in a previous case,
even if the second suit raises different causes of action . . . . [I]ssue preclusion applies:
(1) after final adjudication (2) of an identical issue (3) actually litigated and necessarily
decided in the first suit and (4) asserted against one who was a party in the first suit or
one in privity with that party.

9

DKN Holdings, 61 Cal. 4th at 824 (2015) (internal citations omitted).

6
7

10
11

1.

As noted above, we have a fmal adjudication.

2.

The 'identical issues' factor looks at whether there are "identical factual

12
13
14
15

allegations" in the two proceedings, and "not whether the ultimate issues or dispositions are the
same." Lucido v. Super. Ct., 51 Cal. 3d 335, 342 (1990). As noted, the factual allegations
regarding causation are substantially the same.

16

3.

Here, collateral estopple is asserted against a party in the first (federal) suit.

17

4.

While causation was actually decided in the federal action, collateral estoppel is

18
19

not permissible if the earlier fmdings were subject to a different standard of proof. Wimsatt v.
Beverly Hills Weight etc. International, Inc., 32 Cal. App. 4th 1511, 1523-24 (1995).

20
In the federal action, plaintiffs' evidence did not satisfy their burden of proving antitrust

21
22

impact (specifically, that the alleged illegal agreements affected the price that each putative class

23

member paid for a vehicle). In re New Motor Vehicles, 632 F. Supp. 2d at 63. The federal

24

plaintiffs were required to overcome two hurdles to show causation. First, they had to show

25
26

16

This may inflate the significance of a trial judge's views, as appellate review is probably de novo. Noble v.
Draper, 160 Cal. App. 4th 1, 10 (2008).

13

J.C.C.P. No. 4298; CJC-03-004298

1

defendants' action resulted in an increase in dealer invoice prices and MSRPs in the United

2

States. This in turn depended on (1) a showing that there was "a flood of significantly lower-

3

priced Canadian cars coming across the border for resale in the United States during times of

4
arbitrage opportunities, enough cars to cause manufacturers to take steps to protect the American
5
6

market from this competition by decreasing nationally set prices," and (2) distinguishing

7 between "the effects of any permissible vertical restraints from the effects of the alleged,
8

impermissible horizontal conspiracy." And second, plaintiffs had to show each member of the

9

class was in fact injured. Id. at 51-52. The First Circuit expressly pointed out that any inference

10
11

or intuition that any upward pressure on national pricing would raise prices paid by individual
consumers was "not enough." Id. at 52. Based on this guidance, Judge Homby found that the

12
13
14

plaintiffs did not have enough evidence to show that every member of the putative class was
injured by paying a higher transaction price—there was no independent evidence of common

15

proof of impact on transaction prices, and plaintiff's expert Dr. Hall could only infer that

16

changes in list price were passed on to car buyers. Id. at 56, 62-63.

17
18
19

California law follows a different standard. In granting summary judgment, Judge
Homby acknowledged the distinction, noting: "My reasoning and conclusion do not
differentiate between the nineteen states. California, the easiest case for the plaintiffs' burden

20
21

because of a shifting presumption (as I said in my certification order), is no longer in the mix

22

. . . . Each of the other nineteen states requires affirmative proof of causation." In re New Motor

23

Vehicles, 632 F. Supp. 2d at 63. In my Order denying Ford Canada's motion for summary

24 judgment, I found California plaintiffs might prevail on the issue of causation. Order (entered
25
26

May 16, 2017) at 13. This is because California courts "have shown no hesitancy in ruling that
when a conspiracy to fix prices has been proven and plaintiffs have established they purchased
14

J.C.C.P. No. 4298; CJC-03-004298

1 the price-fixed goods or services, the jury can infer plaintiffs were damaged." B. WI. Custom
2
3

Kitchen v. Owens-Illinois, Inc., 191 Cal. App. 3d 1341, 1350-51 (emphasis in original); Order
(entered May 16, 2017) at 9. "[I]mpact will be presumed once a plaintiff demonstrates the

4
existence of an unlawful conspiracy that had the effect of stabilizing, maintaining or establishing
5
6

product prices beyond competitive levels." B.W.I., 191 Cal. App. 3d at 1351 (emphasis added).

7

Thus because the federal action decided the causation issue on a standard of proof

8

different than what might apply in this state court, the specific issue of causation was not

9

litigated and decided in the prior proceeding and collateral estopple does not apply.

10
11

Conclusion

12
13
14

The motion is granted. Ford Canada should now prepare a form of judgment and provide
it to me with any plaintiff's comments as to form.

15
16
17

Dated: June 16, 2017
Curtis E.A. Kamow
Judge Of The Superior Court

18
19
20
21
22
23
24
25
26
15

J.C.C.P. No. 4298; CJC-03-004298

CERTIFICATE OF ELECTRONIC SERVICE
(CCP 1010.6(6). & CRC 2.260(g))
I, DANIAL LEMIRE, a Deputy Clerk of the Superior Court of the County of San
Francisco, certify that I am not a party to the within action.
, I electronically served THE ATTACHED DOCUMENT via
'JUN 16 2017
File & ServeXpress on the recipients designated on the Transaction Receipt located.on the File &
On

ServeXpress website.
Dated:

'JUN 16 2017

. Mich • el Yuen,
By:
DANIAL LEMIRE, Deputy Clerk

APPENDIX C

Court of Appeal, First Appellate District
Charles D. Johnson, ClerlcIF.xecutive Officer
Electronically FILED on 10/23/2019 by S. Wheeler. Deputy Cle!

Opn. filed
9/25/19; Mod
Mod filed
10/23/19
Opn.
filed 9/25/19;
filed 10/23/19

NOT TO
TO BE
BE PUBLISHED
PUBLISHED IN
OFFICIAL REPORTS
REPORTS
NOT
IN OFFICIAL
California Rules
Rules of
Court, rule
8.1115(a), prohibits
and parties
from citing
or relying
relying on
opinions not
not certified
for publication
California
of Court,
rule 8.1115(a),
prohibits courts
courts and
parties from
citing or
on opinions
certified for
publication or
or
ordered published,
except as
as specified
specified by
8.1115(b). This
This opinion
opinion has
has not
not been
been certified
for publication
ordered published
for
ordered
published, except
by rule
rule 8.1115(b).
certified for
publication or
or ordered
published for
purposes
of rule
rule 8.1115.
8.1115.
purposes of

IN
COURT OF
OF APPEAL
APPEAL OF
OF THE
THE STATE
OF CALIFORNIA
CALIFORNIA
IN THE
THE COURT
STATE OF
FIRST
FIRST APPELLATE
APPELLATE DISTRICT
DISTRICT
DIVISION FOUR
FOUR
DIVISION
IN
RE AUTOMOBILE
AUTOMOBILE ANTITRUST
ANTITRUST
IN RE
CASES II AND
AND II.
II.
CASES
A152295
A152295
(City &
& County
County of
of San
Francisco
(City
San Francisco
Super.
Ct. Nos.
Nos. JCCP
Nos. 4298
4298 &
Super. Ct.
JCCP Nos.
&
4303; CJC03004298)
CJC03004298)
4303;
ORDER MODIFYING
MODIFYING OPINION
OPINION
ORDER
AND
AND DENYING
DENYING REQUEST
REQUEST FOR
FOR
REHEARING [NO
REHEARING
[NO CHANGE
CHANGE IN
IN
JUDGMENT]
JUDGMENT]
BY THE
THE COURT:
BY
COURT:
It
ordered that
that the
the opinion
opinion filed
herein on
on September
25, 2019,
2019, be
be modified
modified as
as
It is
is ordered
filed herein
September 25,
follows:
follows:
1.
On page
page 20,
20, before
before the
the paragraph
paragraph that
that begins
begins "Finally,
“Finally, we
we do
do not
not agree,"
agree,” aa new
new
1. On
paragraph shall
shall be
be added
added that
that reads
as follows:
paragraph
reads as
follows:
In aa rehearing
In
rehearing petition,
petition, Ford
Ford Canada
Canada argues
argues that,
that, under
under comment
to
comment aa to
section 39
39 of
of the
the Restatement
Restatement Second
of Judgments,
nonparty controls
controls
section
Second of
Judgments, aa nonparty
litigation whenever
whenever it
has "
“ ‘' "the
“the opportunity
opportunity to
to present
present proofs
proofs and
and
litigation
it has
argument.” ’' "
” But
But comment
comment aa uses
uses the
the quoted
quoted language
language in
in setting
setting forth
the
argument."
forth the
“Rationale” for
the control
theory of
of preclusion.
preclusion. (Rest.2d
(Rest.2d Judgments,
39,
"Rationale"
for the
control theory
Judgments, §§ 39,
com. a,
a, p.
p. 382.)
382.) Assuming
Assuming but
but not
not deciding
deciding that
that the
the theory
theory of
of nonparty
nonparty control
control
com.
applies at
at all
all to
to claim
claim preclusion—comment
preclusion—comment b
b suggests
suggests that
that it
it applies
applies only
only to
to
applies

1

com. b, pp. 383-384)—
383–384)—
issue preclusion (see Rest.2d Judgments, § 39, corn.
com. c,
comment c states the test for control (see Rest.2d Judgments, § 39, corn.
p. 384 ["Elements
[“Elements of control"]),
control”]), and on this record Ford Canada does not meet
the test. According to comment c, to have control a nonparty must have
“effective choice as to the legal theories and proofs to be advanced in behalf of
"effective
action” (although the choices can be in the hands of counsel
the party to the action"
“must also have control over the opportunity to
and shared with others) and "must
review.” (Ibid.) Control is a "question
“question of fact”
obtain review."
fact" (ibid.), and we reject
Ford Canada's
Canada’s assertion it was "conclusively"
“conclusively” established here. We are not
persuaded the evidence of coordination among counsel establishes the
California plaintiffs had effective choice as to the legal theories and proofs to
be advanced in the federal proceeding. And Ford Canada does not contend the
California plaintiffs had control over whether the federal plaintiffs sought
court’s summary judgment order.
appellate review of the federal court's
2. Footnote 11 on page 20 shall be deleted.

The modifications effect no change in the judgment.
Respondent’s petition for rehearing is denied.
Respondent's

(Streeter, Acting P.J., Tucher, J., and Brown, J. participated in the decision.)

23 , 2019
Dated: October ___,

_______________________________Acting
Acting P. J.

A152295

2

